<html>
<title> - DEPARTMENT OF DEFENSE POLICY AND PROGRAMS TO COUNTER THREATS TO THE UNITED STATES FROM TERRORISM AND IRREGULAR WARFARE</title>
<body><pre>[Senate Hearing 114-576]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-576

                    DEPARTMENT OF DEFENSE POLICY AND
                   PROGRAMS TO COUNTER THREATS TO THE
                    UNITED STATES FROM TERRORISM AND
                           IRREGULAR WARFARE

=======================================================================

                                 HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-523 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a> 
                    



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman	JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma		BILL NELSON, Florida
JEFF SESSIONS, Alabama			CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi		JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire		JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska		        KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas			RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota		JOE DONNELLY, Indiana
JONI ERNST, Iowa			MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina		TIM KAINE, Virginia
DAN SULLIVAN, Alaska			ANGUS S. KING, JR., Maine
MIKE LEE, Utah				MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                    
Christian D. Brose, Staff Director
Elizabeth L. King, Minority Staff 
             Director
             
             
<RULE>_________________________________________________________________

           Subcommittee on Emerging Threats and Capabilities


DEB FISCHER, Nebraska, Chairman
KELLY AYOTTE, New Hampshire
TOM COTTON, Arkansas
JONI ERNST, Iowa
THOM TILLIS, North Carolina
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      BILL NELSON, Florida
                                     JOE MANCHIN III, West Virginia
                                     JEANNE SHAHEEN, New Hampshire
                                     KIRSTEN E. GILLIBRAND, New York
                                     JOE DONNELLY, Indiana
                                     TIM KAINE, Virginia

                                  (ii)


                         <HEAD>C O N T E N T S

<RULE>_________________________________________________________________

                             april 21, 2015

                                                                   Page

Department of Defense Policy and Programs to Counter Threats to       1
  the United States from Terrorism and Irregular Warfare.

Lumpkin, Honorable Michael D., Assistant Secretary of Defense for     2
  Special Operations and Low-Intensity Conflict.
Howell, Brig. Gen. Scott A., Howell, USAF, Deputy Director for        6
  Special Operations and Counterterrorism (J37), Joint Staff.

                                 (iii)

 
                    DEPARTMENT OF DEFENSE POLICY AND
                   PROGRAMS TO COUNTER THREATS TO THE
                    UNITED STATES FROM TERRORISM AND
                           IRREGULAR WARFARE

                              ----------                              


                        TUESDAY, APRIL 21, 2015

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:39 p.m. in 
room SR-222, Russell Senate Office Building, Senator Deb 
Fischer (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Fischer, Cotton, Ernst, 
Tillis, Nelson, Shaheen, Gillibrand, Donnelly, and Kaine.

      OPENING STATEMENT OF SENATOR DEB FISCHER, CHAIRWOMAN

    Senator Fischer. The hearing will come to order.
    I'd like to welcome everyone to the hearing today. Senator 
Nelson is on his way, but we're going to start the hearing.
    This subcommittee meets today to receive testimony on the 
Department of Defense's counterterrorism activities and policy.
    And I'd like to welcome our witnesses. Before us today, we 
have Michael Lumpkin, the Assistant Secretary for Special 
Operations and Low Intensity Conflict, and Brigadier General 
Scott Howell, the Deputy Director for Special Operations and 
Counterterrorism on the Joint Staff.
    Welcome, gentlemen, and I thank you both for your service.
    Following their brief opening statements, we will have a 5-
minute round of questions for each member, and then we will 
proceed to a closed session.
    I look forward to hearing from our witnesses today about 
how the Department is keeping pace with an increasingly 
unstable global threat picture. In the last year, ISIL has 
taken Mosul and expanded its control in Syria; Libya has 
descended further in the chaos; Yemen's government has 
collapsed; and al-Shabaab continues to conduct high-profile 
attacks in Somalia and Kenya. Those who seek to attack our 
Nation are taking advantage of this rising tide of instability, 
and the lack of credible local partners casts doubt on whether 
the President's strategy of taking out terrorists who threaten 
us while supporting partners on the front lines can even be 
applied today. I hope the witnesses will help this committee 
understand how the U.S. policy has adapted to this new 
landscape and what new approaches are being utilized to protect 
U.S. interests.
    I also hope to hear more from our witnesses on the amount 
of risk our current strategy is accepting. General Votel has 
characterized it as moderate, but I hope our witnesses can add 
further detail and explain how this risk is distributed. My 
concern is that, if we are only responding to the highest-
priority verified threats against our country, we will be 
unable to proactively deal with smaller problems before they 
become serious threats. Accepting such risk seems, at best, to 
be a temporary strategy, since small problems will inevitably 
accumulate and grow.
    I would ask unanimous consent that we enter Senator 
Nelson's, the Ranking Member, comments--opening statement into 
the record.
    Senator Fischer. And, with that, I would ask our panel to 
please give us their opening statements.
    Secretary.

STATEMENT OF HONORABLE MICHAEL D. LUMPKIN, ASSISTANT SECRETARY 
  OF DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT

    Mr. Lumpkin. Thank you, Chairman Fischer, Ranking Member 
Nelson, and distinguished members of the subcommittee. Thank 
you for this opportunity to appear before you today.
    I am joined at the table by Brigadier General Scott Howell, 
the Deputy Director for Special Operations on the Joint Staff. 
And Mr. Steve Vanech, the acting Director for National 
Counterterrorism Center's Director of Intelligence, will join 
us for the closed session.
    As I speak, U.S. Special Operations Force, also known as 
USSOF, are deployed globally to support our mission to defend 
America, our allies, our partners, and from the threats posed 
by terrorist organizations. In today's environment, USSOF 
successfully take direct action against multiple terrorist 
organizations, in addition to building the capacity of our 
partners. USSOF provide a vital but small component of our 
comprehensive approach to counterterrorism. These efforts take 
time to mature, but our operations are having positive effects.
    As you are keenly aware, our Special Operations Forces are 
unique assets. These assets are only effective when the 
Department has the authority to employ them properly. While the 
2001 Authorized Use of Military Force, also known as AUMF, and 
the 2002 Iraq AUMF provide statutory authority for our current 
operations, I fully support the President's proposed AUMF to 
counter the Islamic State of Iraq in Levant, or ISIL. This 
proposed legislation provides the adequate flexibility to 
counter ISIL today while signaling to our friends and our 
enemies that we are serious about addressing future 
permutations of this expanding threat. I urge you to favorably 
consider it.
    I will now provide general comments on our counterterrorism 
efforts. My colleagues and I will present additional details 
during the closed session.
    Since August 2004, USSOF has aggressively pursued ISIL in 
Iraq and Syria. USSOF have deployed more than 3,000 personnel 
to the region and conducted more than 10,000 hours of 
intelligence, surveillance, and reconnaissance operations. 
USSOF have enabled thousands of strikes against ISIL's 
leadership and forces, weakened its ability to exert external 
territorial control, and challenged the foundation of its 
expansionalist propaganda.
    As part of our broader effort to assist the Iraqi Security 
Forces, USSOF are coordinating with the central government in 
Baghdad to provide training, equipment, and assistance to the 
Kurdish Peshmerga. USSOF will also provide training and 
assistance to select members of the moderate Syrian opposition.
    While we work to destroy ISIL in Syria and Iraq, the group 
is taking steps to expand its reach into Africa and Southeast 
Asia. Recent killings of civilians in Afghanistan, Libya, 
Yemen, Tunisia, and groups loyal to ISIL highlight the 
expanding nature of the threat.
    In West Africa, USSOF are partnering with local and 
European allies to degrade Boko Haram, which recently pledged 
allegiance to ISIL. With a relatively modest investment of 
personnel and resources, USSOF and our allies are exerting 
significant pressure on Boko Haram and its facilitation 
network.
    I am deeply concerned that the lack of unity of government 
and deteriorating situation in Libya has created a safe haven 
for militias and terrorist organization. ISIL's increased 
popularity and presence in Libya highlight the need to quickly 
achieve a lasting political solution. As I mentioned earlier, 
the President's draft AUMF would provide appropriate 
flexibility to confront ISIL's affiliates, where conditions 
merit.
    SOF are also working in multiple countries to eliminate the 
threat posed by al-Qaeda. In Afghanistan, USSOF, in partnership 
with the Afghans, continue to pressure al-Qaeda, the Haqqani 
Network and others that pose threat to U.S. and coalition 
interests. USSOF provide critical support to train, advise, 
assist the Afghans, in addition to conducting targeted 
counterterrorism operations.
    Across Africa, USSOF are partnering with local and regional 
forces and our European allies to degrade terrorist groups, 
such as the Somali-based al-Shabaab and al-Qaeda in the Lands 
of the Islamic Maghreb. These efforts have had significant 
disruptive effects on these organizations. In addition, USSOF 
are supporting other U.S. Government efforts to improve 
governance and promote security across the continent.
    In Yemen, I am troubled by the ongoing military aggression 
perpetuated by the Houthis and the resulting widespread 
unstable security conditions. Before the Houthis' destabilizing 
military actions against the legitimate Government of Yemen, 
USSOF provided critical support to the Yemeni security forces 
to develop their ability to counter the threat of al-Qaeda in 
the Arabian Peninsula. USSOF will continue to contribute to the 
broader U.S. Government efforts to restore stability in Yemen 
and degrade AQAP.
    And in Syria, USSOF are conducting strikes against key 
members of al-Qaeda's Syria-based affiliate.
    SOF are taking steps to understand and address multiple 
global threats, including terrorist networks, the flow of 
foreign fighters, the proliferation of weapons of mass 
destruction, and malign activities undertaken or sponsored by 
other states. USSOF are deployed around the world, and are 
working closely with our allies and partners to leverage our 
respective strengths and capabilities against these common 
threats. USSOF represent relatively small slice of the U.S. 
Government's efforts against these threats; however, they are 
achieving meaningful and positive effects.
    I look forward to providing details in answering any 
questions you may have.
    Thank you very much.
    [The prepared statement of Mr. Lumpkin follows:]
            Prepared Statement by Honorable Michael Lumpkin
                              introduction
    Chairman Fischer, Ranking Member Nelson, and distinguished members 
of the subcommittee, thank you for this opportunity to appear before 
you today. As I speak, U.S. Special Operations Forces--known as USSOF--
are deployed across the globe in support of our broader 
Counterterrorism Mission to defend America, our friends, and our 
partners, from the threat posed by extremist terrorist organizations. 
The current security environment is rapidly evolving with new threats 
and challenging dynamics. In this complex environment, U.S. SOF 
continue to successfully undertake operations against terrorist 
organizations. Many of those forces are also doing critical work 
associated with building the capacity of our partners to conduct their 
own operations. Of critical importance, but often less visible, the 
relationships that U.S. SOF develop with partners through persistent 
engagement over many years are among the most valuable counter-
terrorism tools available to the United States.
    Additionally, some SOF are poised to take direct action, including 
strikes against high-value targets, when required. I will provide an 
overview here and provide you with details on that specific element of 
SOF efforts, and answer any questions you may have in our closed 
session. I look forward to describing for you some of the actions 
conducted recently and answering your questions, both here and in the 
closed session. But before I do, I want to stress that direct action 
counterterrorism operations are only a small part of a larger U.S. 
counterterrorism effort. As I mentioned earlier, beyond direct action, 
we put great effort into building partner capacity. These efforts are a 
vital component of the whole-of-government approach to 
counterterrorism, complementing the work of the State Department, the 
Justice Department, Treasury, Homeland Security, and our Intelligence 
Community, just to name a few. These efforts take time to mature, but 
our strategy is having positive impacts.
    One example of our successful whole-of-government approach is 
Colombia. In just over a decade, and thanks in large part to U.S. 
Government assistance and engagement, Colombia has been transformed 
from a near-failed state into a major regional player with significant 
political influence, the continent's most professional security forces, 
and a dynamic economy. Colombia has set the standard for law 
enforcement and counter-narcotics cooperation. Colombia now exports 
their security expertise to other countries. The number and 
effectiveness of Revolutionary Armed Forces of Colombia and National 
Liberation Army guerrillas have been dramatically reduced. These 
developments are making possible President Santos' deliberate steps to 
achieve a negotiated peace. Efforts to reach a peace agreement are 
ongoing, and continued robust U.S. Government engagement is necessary 
to ensure that lasting success is achieved. Colombia's case highlights 
what targeted SOF employment, intelligence, and sustained U.S. 
Government engagement can accomplish.
    As you are keenly aware, our Special Operations Forces are unique 
assets. They benefit from a very rigorous selection process, realistic 
training, as well as specialized education and equipment. These assets 
are only effective when the Department of Defense has the authority to 
employ them properly. While the 2001 Authorization for Use of Military 
Force (AUMF) and the 2002 Iraq AUMF provide statutory authority for the 
current operations I am going to discuss with you in our closed 
session, I fully support the President's proposed AUMF to counter the 
Islamic State of Iraq and the Levant (ISIL). This proposed legislation 
provides adequate agility to conduct operations necessary to counter 
ISIL today, while signaling to our friends and enemies that we are 
serious about addressing future permutations of this very real threat. 
I urge you to favorably consider it.
    I will now take a brief moment to address the counterterrorism 
situation in several regions around the world.
                   counterterrorism in iraq and syria
    Since August 2014, U.S. SOF have aggressively pursued ISIL and al-
Qaeda-associated forces operating in Iraq and Syria. U.S. SOF have 
deployed more than 3,000 personnel to the region and conducted more 
than 10,000 hours of intelligence, surveillance, and reconnaissance 
missions, which have enabled thousands of strikes against ISIL and al-
Qaeda forces in Iraq and Syria.
    In Syria, U.S. SOF have taken a simultaneously top-down and bottom-
up approach. That is, they are focused on concurrently destroying 
ISIL's leadership and forces, in order to weaken ISIL's ability to 
exert territorial control, and to challenge the foundation of its 
expansionist narrative. Operations against ISIL in Northern Syria are 
focused on ISIL's network along the border with Turkey. These 
operations are now expanding beyond the towns immediately around 
Kobani. In addition, U.S. SOF continue to conduct operations against 
key members of al-Qaeda's Syria-based affiliate.
    In Iraq, U.S. SOF are engaged in multiple operations to degrade 
ISIL, while increasing our partner's capabilities. U.S. SOF in Northern 
Iraq, in coordination with the central government in Baghdad, have 
worked with Kurdish Peshmerga forces to great effect. With U.S. SOF-
provided training, equipment, and assistance, Peshmerga forces have 
conducted multiple, complex operations against ISIL in Iraq. These U.S. 
SOF-led efforts are only a small component of the U.S. Government's 
broader strategy to train, equip, and advise Iraqi Security Forces.
                       counterterrorism in yemen
    In Yemen, I remain deeply troubled by the ongoing military 
aggression perpetuated by the Houthis and the resulting wide-spread, 
unstable security conditions. Before the Houthis' destabilizing 
military actions against the legitimate government of Yemen, U.S. SOF 
provided critical support to Yemen's security forces to develop their 
ability to counter the threat of al-Qaeda in the Arabian Peninsula 
(AQAP). AQAP remains al-Qaeda's most dangerous regional affiliate, and 
I am concerned by its ability to exploit the current security vacuum in 
Yemen. U.S. SOF will continue to contribute to the broader U.S. 
Government's efforts to develop opportunities to restore stability in 
Yemen and degrade AQAP's operational capabilities.
                    counterterrorism in afghanistan
    In Afghanistan, U.S. SOF efforts are critical to U.S. Government 
efforts of solidifying the security gains made over the last decade, 
and contributing to robust, enduring counterterrorism partnerships. 
Preventing al-Qaeda from regenerating in Afghanistan, monitoring 
potential emerging threats, and preventing attacks on our forces remain 
our top priorities.
    U.S. SOF, in partnership with the Afghans, continue to pressure al-
Qaeda and other groups, such as the Haqqani network, that pose a threat 
to U.S. and Coalition personnel serving in Afghanistan. U.S. SOF 
provide critical support to train, advise, and assist the Afghans, in 
addition to conducting counterterrorism operations against the remnants 
of al-Qaeda. U.S. SOF are building the capacity of the Afghan National 
Security and Defense Forces, particularly Afghan SOF, so they can serve 
as the legitimate and capable first line of defense against terrorists 
seeking to destabilize Afghanistan.
                       counterterrorism in africa
    In Africa, the threat environment is varied and evolving with 
terrorist organizations, such as al-Shabaab and Boko Haram, able to 
exploit corruption, instability, and popular grievances in order to 
mobilize support, establish sanctuaries, and carry out attacks. In 
coordination with broader U.S. Government efforts in Africa, U.S. SOF 
are deployed across the continent and are working closely with partners 
to disrupt these threats and support efforts to improve security and 
stability. U.S. SOF have been cultivating relationships with our local 
partners in this region for years. We are now starting to see the 
returns on those early investments, but it is critical that we continue 
to sufficiently resource these operations.
    The recent, high-profile attacks by al-Shabaab in Garissa, Kenya 
and against the Higher Education Ministry in Somalia serve as reminders 
of the serious threat posed by this group. U.S. SOF are partnering with 
African Union forces operating in Somalia, in addition to undertaking 
unilateral operations against al-Shabaab high-value targets who are 
part of al-Qaeda. These efforts have had a significant impact on al-
Shabaab's leadership and have forced it to shift personnel and 
resources out of traditional safe havens along the Somali coast. The 
coast had been the main source of revenue for the organization, and 
finances are the lifeblood of terrorist organizations. U.S. SOF 
continue to work with our regional partners on the ground to maintain 
military pressure on al-Shabaab and support other U.S. Government 
efforts to improve governance and sustain security gains in Somalia.
    In West Africa, U.S. SOF are partnering with local and European 
allies to degrade Boko Haram. With a relatively modest investment of 
personnel and resources, U.S. SOF have been able to support our allies 
who are exerting significant pressure on extremists and the 
facilitation networks that support them. Although Boko Haram continues 
to pose a significant threat to the Lake Chad Basin region, our local 
partners are now in a better position to conduct offensive operations 
against Boko Haram, while safeguarding their respective populations.
    Across the Trans-Sahel region, U.S. SOF are partnering with local 
and European allies to degrade al-Qaeda in the Lands of the Islamic 
Maghreb. Taking advantage of multiple programs and authorities, U.S. 
SOF are supporting our allies to significantly degrade the ability of 
these groups to operate in the Mali-Niger-Algeria tri-border region. 
The relationship and cooperation between U.S. SOF and French forces has 
been particularly important as we work collaboratively to meet shared 
counterterrorism objectives.
                       counterterrorism in libya
    As with Yemen, I am deeply concerned about the political and 
security situation in Libya. The lack of a unity government that is 
representative of all of Libya's people has created an environment 
where militias and terrorist organizations can take hold. ISIL's 
increased popularity and presence in Libya highlight the need to 
quickly achieve a lasting political solution. As I mentioned earlier, 
the President's draft AUMF would provide the appropriate flexibility to 
confront ISIL elements and threats where conditions merit.
                             global threats
    We are also taking steps to understand and address multiple global 
threats, including: the challenges associated with the flow of foreign 
terrorist fighters, the proliferation of weapons of mass destruction, 
and malign activities undertaken or sponsored by other states. Although 
these threats cross multiple geographic combatant command boundaries, 
U.S. SOF are well-postured to mitigate them. U.S. SOF are deployed 
around the world and are working closely with our allies and partners 
to leverage our respective strengths and capabilities against these 
common threats. These long-term partnerships are critical, given that 
these transnational challenges will take years to effectively address.
                               conclusion
    Forward deployed U.S. SOF personnel are leveraging unique 
capabilities and working with partners to address some of the most 
significant and complex threats that face our country, our allies, and 
our partners. U.S. SOF represents a relatively small slice of the U.S. 
Government's efforts against these threats, however, they are achieving 
significant and meaningful positive effects. I look forward to 
detailing for you some of our recent activities and answering your 
questions. Thank you.

    Senator Fischer. Thank you, Mr. Secretary.
    General.

STATEMENT OF BRIG. GEN. SCOTT A. HOWELL, USAF, DEPUTY DIRECTOR 
 FOR SPECIAL OPERATIONS AND COUNTERTERRORISM (J37), JOINT STAFF

    General Howell. Chairman Fischer, Ranking Member Nelson, 
distinguished members of the subcommittee, appreciate the 
opportunity to come appear before you today to discuss these 
important topics.
    I do not have a prepared opening statement, but look 
forward to the discussion and your questions.
    Senator Fischer. Thank you, sir.
    With that, I will begin the questioning. We will have our 
5-minute rounds.
    And, Mr. Secretary, as I mentioned in my opening statement, 
General Votel has stated that he's able to meet the current 
threats with moderate risk. Can you elaborate on what a 
moderate risk is and if we're only going to be dealing with, I 
guess, verifiable threats to the homeland?
    Mr. Lumpkin. I think the--what General Votel was speaking 
of when he was reflecting the moderateness of the risk is that, 
because of the size of the force and the scope of the problem, 
we have to work with our limited means to do what we possibly 
can. And those things that are imminently threat to U.S. 
interests are--and U.S. lives--are what we at the Department 
are focused on.
    Again, we are just a part of the larger U.S. 
counterterrorism effort that involves State, it's involved--
Department of State, USAID--in these efforts to restore 
governance, because these terrorist organizations take root and 
take hold in areas where there's a--not a strong central 
government and they have maneuver room to grow and to 
metastasize.
    So, again, I think what he was speaking of specifically is 
that section of what we're able to do within our--within the 
toolbag of the Department of Defense.
    Senator Fischer. Would you say our focus now, then, is on 
Syria and Iraq? And at what point do we, I guess, not play 
defense and we start looking more at offense? Do we wait until 
something gets out of control? Does it have to boil over? When 
do we commit resources in places like Yemen and Libya?
    Mr. Lumpkin. That's a great question. Thank you very much.
    I think the key is--and I think that's one of the reasons 
why the President submitted the Authorized Use of Military 
Force against ISIL that was not geographically bounded. It 
allowed--it was against the organization of ISIL, as we see it 
metastasizing in these areas that lack governance, these places 
like Libya. We have seen, you know, ISIL expanding across 
northern Africa into other places into the Middle East. So, I 
think this was a--an initiative to have the flexibility, should 
they metastasize to prove a threat against the United States, 
that we could effectively respond.
    Senator Fischer. You don't feel that you have the authority 
or the flexibility now to counter threats in places like Libya 
or Yemen?
    Mr. Lumpkin. I believe that if we--I mean, I would have to 
defer to the lawyers and the--how they see the current 
authorities and how they're interpreted. But, I know that there 
are limitations to what we can do, going back, the AUMF of 2001 
has very--has been--has strict adherence guidelines, and we 
have to make sure we're fully compliant. And again, I think 
that the President's intent of submitting the AUMF for--against 
ISIL was to--as we look at the current problem in Iraq and 
Syria, but also to see, as they are metastasizing, make sure we 
have the agility to do what's necessary before they get out of 
hand.
    Senator Fischer. Do you try to look at policy, and what the 
policy should be, what the strategy should be, where we need to 
commit our forces, before you look at what the resources are? I 
mean, this committee--this subcommittee and the full committee 
hear constantly about sequestration and the challenges that 
that has put on our military. But, shouldn't it be policy 
that's driving decisions that are made, and not looking at the 
limits that we may or may not be facing with resources?
    Mr. Lumpkin. With regard to DOD's counterterrorism policy, 
yes. And that's why we have a strategy that dovetails section 
1208 strategies that the Congress has been very supportive of, 
as well as section 2282, global train-and-equip strategies, to 
make sure we can build our partner capacity to make sure that 
we have those--our--those partners that we can with--by, with, 
and through to achieve the outcomes that we're looking for. So, 
yes, we have a--what I would say, a coherent strategy. But, 
again, a small slice of the larger U.S. Government strategy.
    Senator Fischer. And how do you judge when a moderate risk 
becomes a high risk?
    Mr. Lumpkin. We continually evaluate, every day, to see, as 
things change and they shift, the speed with which the enemy 
can move, based on the lack of governance and security vacuums 
in numerous countries, can--forces us to monitor all the time.
    Senator Fischer. Well, thank you, Mr. Secretary.
    Mr. Lumpkin. Yes, ma'am.
    Senator Fischer. Next, I would call on my Ranking Member, 
Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    And I will hold most of my questions for the classified 
session.
    But, let me just ask you. Last year, Congress provided DOD 
with a CT-focused transfer fund of 1.3 billion. But, that 
hasn't been spent. So, why not? And which one of your deputies 
is charged with executing this program?
    Mr. Lumpkin. Thank you for that question, Senator.
    I received oversight responsibility of the Global 
Counterterrorism Partnership Fund within the Department about 
30 days ago. Since that time, we--of the $1.3 billion, about 
220 million of it has been obligated, to date. We're--I fully 
expect to obligate about another $270 million, here, shortly.
    One of the things we have to make sure as we're building 
this program, which the Congress was so supportive on, is to 
make sure we have the right governance in place to provide--
that we're putting--effectively managing the monies and 
managing the resources so that we have measures of 
effectiveness with the program as we build it.
    So, what we want to make sure we're not doing is, we're not 
just throwing money against the problem, and make sure that 
we--it's part of a larger strategy, and that we put it in 
places where the respective nations can absorb the material 
that we're putting into their respective countries.
    Senator Nelson. Which deputy?
    Mr. Lumpkin. That--it's me that's doing it. I'm----
    Senator Nelson. Okay.
    Mr. Lumpkin.--principally responsible.
    Senator Nelson. All right. Good.
    Now, this committee has also received a lot of complaints 
from the combatant commanders--as a matter of fact, every one 
of them--about the patchwork of security assistance authorities 
that is available to them to build partner capacity. So, why is 
this? Especially since the Office of the Secretary of Defense 
has made the situation additionally complicated by sprinkling 
these programs across a bunch of offices. What's going on?
    Mr. Lumpkin. Senator, I can speak to those programs that I 
manage, specifically, which are the section 2282, section 1208, 
as well as the Global Security Contingency Fund. And the--
those--that's--those fall largely outside of the traditional 
foreign military sales programs, but they are focused on 
equipping and training our foreign partners to make sure that 
they have the capacity to execute missions in support of our 
interests and their interests.
    I--those particular ones that I'm responsible for, I 
believe are well synchronized, and I'd look forward to briefing 
you on how those are synchronized, where we would have more 
time to spend on it.
    But, I'll take--I mean, I can take that question back, from 
the whole of Department of Defense. I'll that one for the 
record, sir.
    Senator Nelson. General Votel told us that a campaign plan 
for global special operations--when he was here last month. 
What is the purpose of this new campaign plan?
    Mr. Lumpkin. The campaign plan, which is still in staffing, 
so it is not an approved campaign plan, is to ensure that SOCOM 
has the ability to fully synchronize its efforts across the 
geographic combatant commands, to ensure that there are no gaps 
in seams where our enemies can hide. So, SOCOM is focused 
largely on the counterterrorism issue, is--wants to make sure 
that we have all the bases covered, so it's just kind of just 
to level the bubbles across the entire defense enterprise, to 
make sure that everybody's singing off the same sheet of music.
    Senator Nelson. For the record, do you want to comment on 
the effects of sequestration and your concerns about the cuts 
to the service-provided enablers?
    Mr. Lumpkin. Yes, sir, I would.
    Sequestration in the Budget Control Act has--will have 
negative impacts, as structured, for U.S. Special Operations 
Command. I think the largest challenges that we'll see is those 
service-supported enablers from combat support, combat service 
support. ISR, the intelligence, surveillance, and 
reconnaissance capabilities that support special operations 
every day, are going to--as well as the force modernization 
for, particularly, special operations aircraft. As you're 
aware, the services provide the aircraft. We make those 
special-operations-peculiar modifications. As they have a 
reduction in funds, those aircraft will come to us at a slower 
rate, which will hurt our modernization ability within the 
force.
    So, I think that we--it will have not only short-term 
impacts, but I think you're looking at long-term impacts on 
modernizing and maintaining a healthy special-operations 
capability in the out years.
    Senator Fischer. Thank you, Senator Nelson.
    Senator Cotton.
    Senator Cotton. Thank you, gentlemen, both, for your 
service to our country.
    Secretary Lumpkin, a little over a year ago, Vladimir 
Putin, in Russia, invaded and took Crimea from the Ukraine. 
That started out with what I think most would characterize as a 
successful unconventional or irregular warfare campaign 
involving the so-called ``little green men.'' Would that be 
your assessment of the way the invasion of Crimea began?
    Mr. Lumpkin. I believe that his incursion into Ukraine 
definitely used unconventional tactics.
    Senator Cotton. Okay. Given what we've started to see in 
the Baltics in recent months, between aggressive behavior from 
Russian bombers or submarines, the alleged kidnapping of an 
Estonian security officer from eastern Estonia, which has a 
large Russian ethnic minority, as does eastern Latvia, what is 
the Department's plans and position for that kind of irregular 
campaign if it were to begin to be conducted by Russia in 
Estonia and Latvia?
    Mr. Lumpkin. That's one we should discuss in a closed 
session, if you don't mind, sir.
    Senator Cotton. Okay, sure.
    I want to ask about the Foreign Intelligence Surveillance 
Act. There are three provisions of that Act that are expiring 
in about 6 weeks, the so-called ``lone wolf,'' roving wiretap, 
and business record provisions. Do you have a perspective on 
the impact that it would have on the men and women in your 
charge if those provisions are not reauthorized and the 
programs they support continue?
    Mr. Lumpkin. Sir, I'll be honest that that's a little out 
of my lane, as far as the intelligence-gathering piece of it. 
So, I would be--wouldn't want to speculate.
    Senator Cotton. Okay.
    General Howell, do you have perspective on that?
    General Howell. No, sir, I don't. I'd have to defer to our 
Intelligence Community colleagues to provide assessment.
    Senator Cotton. Okay.
    I think I'll yield back the balance of my time, in the 
interest of getting on to the closed session.
    Senator Fischer. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chairwoman.
    And, to Secretary Lumpkin and General Howell, thank you 
both for being here.
    I want to go back to--and follow up a little bit on Senator 
Nelson's question about the impact of sequestration on the 
Special Forces, because--I was very impressed, Secretary 
Lumpkin, with your comment in your statement that humans are 
more important than hardware. And I do believe that to be true. 
And I believe that that--if we look at conflict over our 
history, that that's been a critical element of our success, 
has been the importance of individual leaders and the 
commitment that our men and women in uniform have made.
    So, as we look at the impact of sequestration, you've 
talked about a number of things that would be affected by 
service-provided capabilities, but can you talk directly about 
the impact on the men and women who are serving in our Special 
Operations? There's an impact with respect to their 
deployments. And what does that do to morale? What does it do 
to the men and women on the ground? And can you talk in 
language that the average person out there can understand so 
that they really appreciate what's happening to the men and 
women who are serving?
    Mr. Lumpkin. Well, I think, first, from an operational 
standpoint, is--if we reduce ISR--this is the intelligence, 
surveillance, and reconnaissance capability--to our deploying 
forces, we inherently put our troops at greater risk. We have 
less fidelity on what's happening. We have--we take greater 
risk in every operation. So, you're--you increase the risk to 
lives, at the very front end, when you have reduced capability.
    I think you also have--from the human aspect, day to day, 
is--we make decisions, especially--whether--some of our units 
are very reliant on the overseas contingency operations funds. 
And it's very difficult for them to plan and not anticipate 
what the future can be, whether it's a program they're working 
or it's that their very job may exist in the future, just for 
the nature of--we don't--because that's 1-year money, as you're 
aware, and it's not part of base budget. So, I think that 
people are looking for certainty and what's in their future. 
And I think that's key. Because spending years in a precarious 
situation of uncertainty is stressful, in itself.
    We also have a challenge of that we frequently cut, when 
times get tough, are those out-year expenses. And those are 
research and development, and those are education, which are 
absolutely key. And we have to make sure that, whatever the 
outcome of a Budget Control Act scenario in fiscal year 2016, 
that we continue to invest in our people, educationwise, and as 
well as the research and development to make sure we keep them 
safe and have sound operational capabilities in the future, to 
give to Congress and the President, options as we move forward.
    And then it goes everything that trickles down to 
preserving the force, as far as health, welfare, holistic 
taking care of our troops, whether it's pay, allowances, things 
of that nature, that gives us the military capability that we 
have today.
    So, I mean, this goes from the very, you know, operational 
aspects in the field to what life--how you live life every day 
when you go to your housing on base or anywhere else. So, this 
is--the impacts are very crosscutting and very deep, maybe not 
so much in itself at the front end, but as you--as it trickles 
down. And when you add them all together, they are significant.
    Senator Shaheen. And Chair Fischer was getting at the 
question of, What's--what drives--to what extent is policy 
driven by resources? And isn't it true that, despite 
everybody's best intent, that if sequestration kicks in again, 
that, in fact, resources are going to have an impact on our 
policy and our planning?
    Mr. Lumpkin. Absolutely. It does. I mean--though the 
reality is, you can--I mean, whether it's your--how you manage 
your household--you make decisions on how much money you've got 
coming in as income, and it's no different from the Department 
of Defense. We make decisions based on resources that are 
available.
    Senator Shaheen. Thank you.
    Senator Fischer. Senator Ernst.
    Senator Ernst. Thank you. Thank you, Madam Chairwoman.
    Thank you, gentlemen, for being here today. I do appreciate 
the testimony and your service, as well. Thank you very much.
    Last month, I had sent a letter to President Obama 
regarding my concern about Iranian-supported and -controlled 
Iraqi Shiite militia, and the long-term threat that they have 
posed to our country and to a free Iraq. And, as both of you 
know, throughout the war, we have lost a lot of wonderful 
Americans to those that are involved with Iraqi Shiite militia. 
And I believe that we can't forget their sacrifices against 
this type of enemy, and that Iran's long-term--Iran's long-term 
objective is to defeat both the United States and Iraqi 
interests in Iraq. My opinion.
    So, with respect to your near- and long-term assessment, 
what are the most--both the most likely and the most 
dangerous--not necessarily courses of actions, but the 
implications for Iraq, particularly for the Iraqi Kurds and the 
Sunnis, if Iranian-controlled Shiite militias and their groups 
continue at the forefront of taking back territory in Iraq? So, 
again, focusing on Iran and those Shiite militias that are 
backed by Iran, and the implications to both our interests and 
Iraq.
    Mr. Lumpkin. Thank you.
    I think that Mr. Steven Vanech will be in the closed 
session, could give you a much more satisfying answer for 
what----
    Senator Ernst. Okay.
    Mr. Lumpkin.--you're looking for.
    Senator Ernst. Okay, thank you.
    General, the same, also? Okay, thank you very much.
    And then, just a yes-or-no question in regards to this type 
of situation. U.S. equipment that has been provided to Iraqi 
Shiite militias, that equipment that has been provided to the 
Iraqi government, has it been obtained by Iranian-controlled 
militias? Just simple yes or no.
    Mr. Lumpkin. Again, that would be--I would go to Mr. Steven 
Vanech in the closed session for that.
    Senator Ernst. Okay. Okay. I think most of my questions 
will need to be asked in a closed session.
    So, gentlemen, thank you very much. And I look forward to 
that opportunity.
    Thank you.
    Senator Fischer. Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman. thank you 
for hosting this hearing, to you and the ranking member.
    I just got back from a CODEL to Tunisia, Chad, Kenya, 
Senegal, and Djibouti to talk about antiterrorism, to talk 
about growing terror threats from al-Shabaab, from ISIL, from 
Boko Haram. And every single military leader we talked to very 
specifically said counterterrorism can only be addressed partly 
through military action, that, in fact, to be effective, you 
had to combine that with work by the State Department, U.S. 
Agency for International Development (USAID), a more holistic 
strategy on the ground, economic development, a range of 
issues. Do you share that view?
    Mr. Lumpkin. Yes, I do. The key is, is that, as long as 
there is a lack of strong governance in a region, extremists 
will take advantage of that. They'll co-op the people, and they 
will grow, and they will ultimately be a threat regionally to 
the burgeoning governments, but the regional and largely--
ultimately, probably internationally. So, I absolutely agree 
with that.
    Senator Gillibrand. General?
    General Howell. I share the view, as well.
    Senator Gillibrand. So, in closed session, I'll ask you 
more specific questions about what type of strategies might be 
effective. But, top line, every leader we talked to, both U.S. 
and the foreign leaders, they did--very grateful for the work 
the United States was doing. They overwhelmingly were grateful 
for all the training that was taking place on the ground. They 
were very grateful for intelligence-sharing. Several 
governments wanted helicopters sooner than later. But, they 
were grateful. And they saw how things were working 
effectively, in terms of training their personnel to respond, 
particularly in Chad, for example. They were doing very 
effective work against--in Nigeria, more so than the Nigerian 
government was doing. We saw the same in Kenya, where they were 
obviously doing far more effective measures than the Somalians 
were able to do. So, do you think that we have sufficient 
Intelligence Surveillance Reconnaissance (ISR) capabilities to 
support the counterintelligence efforts in Africa? Do you feel 
like we have enough components and investment to do what we 
would like to do in those places?
    Mr. Lumpkin. Before I turn it over to General Howell, I 
will tell you that our shortage of the ISR is not limited to 
Africa. We don't have enough ISR, period. We work the best we 
can to do with what we got. And that's exactly what we do.
    So, as we look at the future and we look at dwindling 
budgets, we see the number of what we call ``orbits,'' the 
number of airframes in the air, is decreasing, not increasing 
as the global threats are increasing so that----
    Senator Gillibrand. So--but, can I request, then, a more 
formal request about what you actually need to meet the needs 
and goals you have in counterterrorism, in terms of ISR? 
Because I want to be able to prioritize that in budget debates 
and also when we write the National Defense Authorization Act 
(NDAA), that we need more resources in this particular area, 
because some things are going to be cut, but some things are 
plussed-up because of the need. So, I'd like more specific 
requests on that.
    Mr. Lumpkin. Will do.
    Senator Gillibrand. By region.
    Mr. Lumpkin. Thank you.
    Senator Gillibrand. And by terror threat.
    General?
    General Howell. Nothing to add to Mr. Lumpkin's comments.
    Senator Gillibrand. Okay.
    The rest of my questions will be in--I will submit for the 
record for a different setting.
    Senator Gillibrand. Now I want to turn to the issue of 
integration. I've read a lot about the Cultural Support Teams, 
how Special Ops have very effectively used them in Afghanistan. 
For example, they would use the Cultural Support Teams to be 
able to go into a village to actually inspect the women to make 
sure they weren't hiding weapons, to question the women and 
children to find out if any terrorists were among them, and to 
very, very positive effects on the missions that certainly were 
being run by Army Rangers and Navy SEAL teams. Can you talk 
about the benefits of this program? And is SOCOM taking into 
full account the range of benefits that would come from female 
participation in Special Ops in its analysis of combat 
integration?
    Mr. Lumpkin. I'll just--I share your comment from the 
Cultural Support Teams that are in Afghanistan, having served 
over there. I think those ladies were reaching part of the 
population that the males were not reaching--in day-to-day 
conversation in the villages, sharing some of their concerns, 
developing relationships, which made our force more effective. 
So, I think we're constantly looking for new ways to find out 
how both males and females can make our force better.
    Senator Gillibrand. And will you use the practical benefits 
that you've seen on the ground as part of your commitment to 
force integration? I mean, I just read that the Army Rangers, a 
large number of the females who were just trained in the latest 
group, passed through the training.
    Mr. Lumpkin. I believe you're talking about the women in 
service review and the integration of women in U.S. Special 
Operations Command. As you're aware, U.S. Special Operations 
Command, like the service, is doing a study, and they're 
working through to give a recommendation, not later than--I 
believe that the decision will be made by 1 January 2016. But, 
they're working through all of those pieces to make sure--
everything from that we have standards that are gender neutral, 
that we have--and we maximize the opportunity for full 
integration within the Special Operations enterprise.
    Senator Gillibrand. Thank you.
    Senator Fischer. Senator Kaine.
    Senator Kaine. Thank you, Madam Chairwoman.
    The news is reporting today that Abu Bakr al-Baghdadi has 
been seriously injured, possibly in March, and is now maybe not 
in operational command of ISIL. There has been earlier reports 
of this. I think there was one in November. There was one in 
March. The November one may have turned out to be incorrect. 
What can you tell us about al Baghdadi's condition and the 
effect that that would have on ISIL's effectiveness?
    Mr. Lumpkin. Thank you, sir. I saw the report, as well, 
earlier today. And again, not the first time we've had this. 
But, I think that talking about the impacts is probably a 
closed-session issue.
    Senator Kaine. Okay. So, you would not have a--I mean, in 
here, not have anything to add, beyond what the report might be 
today, but we can go into the impacts at the later session.
    Mr. Lumpkin. Yeah, I have nothing to add to that report.
    Senator Kaine. Okay.
    Just a couple of questions to understand how a piece of the 
Special Forces mission works. As I've traveled as an Armed 
Services member, one of the things I've really seen is how well 
Special Forces do in training foreign militaries, and how much 
in demand that kind of training assistance is.
    And I also know that the Marines have the Special Purpose 
MAGTAV that's doing training. They've got a unit in Africa. And 
then, the State Partnership Program, which the National Guard 
has, also works on training of foreign militaries. I mean, this 
is great, because it--as far as a expenditure of dollars in the 
grand Pentagon budget, it's not a massive item, but it builds 
up goodwill. And when countries really need it, they need it.
    Talk a little bit about how that--the training is tiered. 
And is it the COCOM that decides this kind of assistance would 
need Special Operations to do the--SOF to do the training, this 
kind would--the State Partnership Program would do it, or this 
time the Marines could do it? How does that get done? Is it 
organized at the COCOM level or is it done differently?
    Mr. Lumpkin. It's largely organized by the--within the 
combatant commands, and they look at--across their theaters on 
where the capacity needs to be built. And so, we work in--
within the Office of Secretary of Defense and the Joint Staff, 
work in conjunction with the COCOMs to look at the resources 
that are available and put the right amount of resources in the 
right place at the right time.
    There are some natural things, where Special Operations 
will generally train Special Operations. But, they can train 
other units, as well, whether it's law enforcement or military. 
We also have the more enduring partnerships that go on, are--
the State Partnership Program is where you have this habitual 
relationship between a foreign nation and, you know, a 
respective state in this country. So, you end up with a very 
habitual relationship, more conventional in nature, that 
exists. But, all of these are synchronized across in--which 
authority are we using? Are we going to use a counternarcotics 
authority? Are we going to do a joint combined exercise for 
training authority, which--where we get 51 percent of the 
training? Are we going to use some other mechanism? So, we try 
to take all these different authorities that we have to 
maximize the engagement with the respective nation to make sure 
we bring up their capacity. And we'll overlay--on the 
counterterrorism front, we'll overlay the 2282, which is the 
global train-and-equip authority, and to make sure that they 
have the resources necessary, material resources--to make sure 
that they have the--whether it's guns, planes, trucks, or 
whatever they need--to make sure that they can execute those 
missions that we train them to in--with those other authorities 
that are out there.
    Senator Kaine. My intuition would tell me that the demand 
for this kind of training from United States is probably 
increasing pretty significantly.
    Mr. Lumpkin. It is increasing. What we do with--anytime we 
do any of these training-type events, though, we--you know, of 
course, we've--we do vetting for human rights, and we do 
things--and so, the--you end up with their--as we work through 
this, is that--especially in areas where there is a lack of 
governance, it gets very difficult to find forces to work with 
that we can adequately and effectively vet to make sure that 
they--we can put the resources of both training and material in 
the country.
    Senator Kaine. Am I right that, sort of as a part of the 
big DOD budget, these training activities are not a--you know, 
a massive percentage of the DOD budget?
    Mr. Lumpkin. You are absolutely correct.
    Senator Kaine. And, when you do them, you build 
relationships, and some of the people you're training might be 
the Defense Minister in 10 years, or maybe the President in 15 
or 20 years. And that's all part of the thinking about why it's 
good for us to be that partner for these foreign militaries?
    Mr. Lumpkin. Absolutely. When--recently when--as the 
Assistant Secretary, I was down in Peru, and I was meeting with 
people that I had gone to SEAL training, you know, 25 years 
ago, when I was an Active Duty Navy SEAL.
    And the other piece that's so significant and important 
about these military-to-military relationships is, when 
political relationships become strained, which happens between 
sovereign nations--it's just part of the international 
community--is that the military-to-military relationship is 
kind of the glue that holds things together, that I can pick up 
the phone and call somebody, and we can have--build a rapport 
at our level to make sure that things don't go sideways on us, 
and we end up with a situation that's much more difficult.
    Senator Kaine. Great.
    I'm over time. Thank you, Madam Chairwoman.
    Senator Fischer. Thank you.
    My thanks to my colleagues. My thanks to you, gentlemen, 
for this open session.
    We will now adjourn for the closed session.
    Thank you.
    [Whereupon, at 3:18 p.m., the committee adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
